Peace Corps
Office of Inspector General




Semiannual Report to Congress
October 1, 2006 - March 31, 2007
                                     PEACE CORPS
                              OFFICE OF INSPECTOR GENERAL
                                 ORGANIZATIONAL CHART




                                        INSPECTOR GENERAL




    EXECUTIVE MANAGER

                                     DEPUTY INSPECTOR GENERAL        OFFICE ADMINISTRATOR
    EXECUTIVE ASSISTANT




ASSISTANT INSPECTOR GENERAL         ASSISTANT INSPECTOR GENERAL   ASSISTANT INSPECTOR GENERAL
       EVALUATIONS                         INVESTIGATIONS                   AUDITS


     SENIOR EVALUATOR                  SENIOR SPECIAL AGENT        TECHNICAL AUDIT MANAGER



     SENIOR EVALUATOR                  SENIOR SPECIAL AGENT             SENIOR AUDITOR



     SENIOR EVALUATOR                     SPECIAL AGENT                 SENIOR AUDITOR



     SENIOR EVALUATOR                     SPECIAL AGENT                    AUDITOR
                 PEACE CORPS

       Office of Inspector General

                                Vision

To conduct audits, evaluations, and investigations that uphold the
effectiveness, efficiency, and integrity of the agency in achieving the
goals set forth in the Peace Corps Act that Peace Corps Volunteers
help the people of the countries in which they serve in meeting
their needs for trained manpower, and in helping promote a better
understanding of the American people on the part of the people
served, and a better understanding of other people on the part of the
American people.




        Semiannual Report to Congress
         October 1, 2006 – March 31, 2007
                            TABLE OF CONTENTS

Highlights from this Report	                                              1
Message from the Inspector General	                                       1

Management and Administration	                                            4
Agency Context	                                                           4
OIG Staffing	                                                             4

Advise and Assistance Provided to the Agency and Others	                  5
Referrals to the Office of Inspector General	                             5
Support Overview for Volunteers in Highly Challenged Posts	               5
Africa Region’s Changes in Response to IG Issues 	                        6
OIG Assistance on Revision of Overseas Financial Management Handbook	     6
Agency Response to Data Breaches	                                         7
African Development Bank	                                                 7

Audits and Program Evaluations	                                           8
Overview	                                                                 8
Peace Corps Fiscal Year 2006 Financial Statement Audit                    9
Review of the Agency’s Federal Information Security Program	             10
China: Audit	                                                            10
Kyrgyz Republic: Audit	                                                  11
Uganda: Follow-up Audit	                                                 11
Zambia: Follow-up Audit	                                                 12
CHP International, Inc.: Contract Audit	                                 12
Ecuador: Audit and Program Evaluation	                                   13
South Africa: Audit and Program Evaluation	                              13
Cameroon: Program Evaluation	                                            14
Summary Report: Best Practices Study	                                    15

Investigations	                                                          16
Overview	                                                                16
  Memorandum of Agreement with the Armed Forces Institute of Pathology   17
  Investigation of a Volunteer’s Disappearance in Bolivia 	              17
OIG Investigations of Federal Employees’ Compensation Act Recipients	    17
  Unique Challenges at Peace Corps	                                      18
  Strategic Plan to Investigate FECA Claims	                             18
  Recent Results Achieved 	                                              19
  Active Investigations of FECA Cases 	                                  20
Violent Crimes Against Volunteers	                                       20
  Closed Cases of Violent Crime Against Volunteers	                          21
  Active Investigations of Violent Crime Cases 	                             22
Title 18 Criminal and Other Investigations Conducted	                        25
  Investigations Leading to Disposition	                                     25
  Pending Investigations	                                                    27

TABLE 1: List of Reports : Audits, Evaluations, and Inspections	             29
TABLE 2: Reports Issued with Questioned Costs or Funds Put to Better Use 	   30
TABLE 3: Status of Reports Issued by OIG with Costs Questioned 	             31
TABLE 4: Status of Reports Issued by OIG with Funds Put to Better Use 	      32
TABLE 5: Reports with Recommendations on which Corrective 	
Action has not been completed 	                                              33
TABLE 6: Summary of Investigative Activity 	                                 34
TABLE 7: Summary of Hotline and Other Complaints	                            35
TABLE 8: References to Reporting Requirements of	                            36
the Inspector   General Act 	                                                36
Highlights from this Report

                      Message from the Inspector General

                                  I am proud to present this Semiannual Report on the
                                  activities and accomplishments of the Peace Corps
                                  Office of Inspector General (OIG) from October 1,
                                  2006 to March 31, 2007. The audits, evaluations,
                                  and investigations described in this report illustrate
                                  the commitment of the Peace Corps OIG to promote
                                  efficiency and effectiveness in the Peace Corps as well as
                                  the tremendous effect and impact that the Peace Corps
                                  OIG has had upon Peace Corps operations.

 Our auditors completed audits of Peace Corps posts in the Kyrgyz Republic,
 South Africa, China, and Ecuador and follow-up audits in Zambia and Uganda.
 In addition, we contracted a firm to conduct the audit of Peace Corps’ FY 2006
 financial statements in accordance with Government Auditing Standards. On
 November 10, 2006, the firm issued a qualified opinion on the Peace Corps’ balance
 sheet as of September 30, 2006 and disclaimed an opinion on the balance sheet as
 of September 30, 2005 and related statements of net costs, changes in net position,
 financing, and budgetary resources for the years ending September 30, 2005 and
 2006. This was a significant achievement for the agency and demonstrates progress
 in the agency’s financial management. In prior year audits, the Peace Corps has not
 been able to achieve an opinion on any of its statements.

 In addition, during this reporting period, our evaluators issued a report titled
 “Blueprint for Success,” which summarized the evaluation unit’s landmark and
 innovative programming study in which they traveled to superior-performing Peace
 Corps posts to assess what makes these posts perform at such a high level. This
 report, which highlighted best practices all over the world, was met with a very
 enthusiastic response from the agency. The evaluators also conducted program
 evaluations at Peace Corps posts in South Africa, Ecuador, and Cameroon.

 During this reporting period, the evaluators have also begun work on two
 overarching and comprehensive assessments of critical functions of the Peace Corps.
 The first is a survey of the safety and security measures implemented in the agency
 over the past few years. The goal of this assessment is to determine whether: (a)
 adequate safety and security information is provided to Volunteers before their
 departure overseas and throughout their service; (b) the Peace Corps has provided
 Volunteers with accurate and relevant training on safety and security; (c) the agency


   Peace Corps Office of Inspector General                                           
has placed Volunteers at sites that have been inspected for safe living and working
environments and continue to be monitored in accordance with agency policy; (d)
Volunteers and Peace Corps staff have appropriately reported and responded to safety
issues; and (e) the agency has adequately planned for emergencies at overseas posts.
This survey will involve trips to 17 overseas posts and interviews with hundreds of
Volunteers and staff.

The second comprehensive study is a review of the Peace Corps’ ability to properly
screen prospective Volunteers for Peace Corps service, particularly in light of Peace
Corps Director Ronald Tschetter’s “50-plus” initiative that encourages individuals
over the age of fifty years to apply for Peace Corps service. The objectives of this
study are to: (a) evaluate the medical screening aspects of the Volunteer Delivery
System, which is the agency’s mechanism for bringing Volunteers in the door; (b)
focus on transparency, information and communication, efficiency, timeliness,
and the cost of the medical screening process (particularly as they relate to older
applicants); and (c) review impediments in the process including those relating to
medical and health care costs.

There have been important developments on the investigative side of the OIG
during this reporting period as well. We have achieved significant and tangible gains
in our Federal Employees’ Compensation Act (FECA) investigation, uncovering
numerous examples of abuse in the system, resulting in overall savings to the agency
of over $2,000,000. The details of our investigative efforts as well as a summary of
the approaches we utilized to achieve these extraordinary results are contained in an
article I penned for the PCIE/ECIE Fall/Winter 2006-2007 edition of the Journal
of Public Inquiry. During this reporting period, our investigative unit also found
evidence of fraud in connection with improper disposal of computers, cyber crimes,
ethics and criminal conflict of interests, and misappropriation of government funds,
which led to disciplinary action and resignations.

Our investigative unit also continued its important work in connection with its
authority to coordinate the agency’s response to violent crimes against Volunteers.
We entered into a memorandum of agreement with the Armed Forces Institute of
Pathology (AFIP) to obtain forensic pathology investigative assistance in the case of a
death of a Volunteer and obtained several significant convictions in rape and assault
cases all around the world.

I appreciate the cooperation of the Peace Corps’ Director, management, employees
and Volunteers and am justifiably proud of the staff of the Peace Corps OIG for their
tireless efforts to promote efficiency and integrity in the Peace Corps.

Finally, on a personal note, during this reporting period, I completed my work
for the U.S. Commission on Civil Rights, which was undertaken pursuant to an
interagency reimbursable agreement first executed in July 2006. In this effort, I


                 Semiannual Report to Congress   October 1, 2006 - March 31, 2007
assisted the Commission in evaluating and developing appropriate internal policies
and procedures as recommended by the Government Accountability Office (GAO) in
its May 2006 report on the Commission and made recommendations to strengthen
the objectivity, accountability and transparency policies that govern the Commission’s
work products. I greatly enjoyed the experience working with the Commission and
am very proud of the significant results that we achieved together.




                                          H. David Kotz
                                          Inspector General




    Peace Corps Office of Inspector General                                     
Management and Administration

                                        Agency Context

  At the end of FY 2006, 7,749 Peace Corps Volunteers and Trainees were serving in 73
  countries at 67 posts. This total includes: 111 Volunteers and Trainees funded by the
  President’s Emergency Plan for AIDS Relief working on HIV/AIDS projects in nine
  countries; 35 Crisis Corps Volunteers serving overseas in short-term assignments in 11
  countries; and 10 Volunteers serving in Thailand on tsunami relief efforts funded through an
  inter-agency agreement with the U.S. Agency for International Development.

  The Volunteers and their programs are supported by approximately 891 American direct
  hire staff—196 overseas, 120 in the regional recruiting offices, and the remaining 575 in
  headquarters. Approximately 2,000 locally hired personnel complete post staffing. The
  Peace Corps also has corporate contracts domestically and overseas, principally for guard
  services and training, and hires expert consultants, largely for training and financial
  management.

                                           OIG Staffing
  During the reporting period, the Office of Inspector General filled three critical positions,
  including the position of Assistant Inspector General (AIG) for Audits. The new AIG for
  Audits, Gerald Montoya, joined the OIG from the Department of Defense (DOD), where
  he worked in different audit capacities since 1990. Most recently, he had been assigned to
  the Financial Resources Division of DOD, where he was responsible for conducting audits
  focusing on military pay and benefits. Before that, he had been detailed to the Special
  Inspector General for Iraq Reconstruction, where he served as the Deputy Assistant Inspector
  General for Audit, and was assigned to Baghdad, where he was responsible for the whole
  gamut of audits relating to the Iraq Relief and Reconstruction Fund. He has a bachelor’s
  degree with a minor in accounting and political science, and earned his master’s degree from
  Georgetown University in policy management, graduating with a grade point average of 3.9.

  In addition, we filled a vacant audit position with an experienced auditor from the private
  sector, who also was a former Peace Corps Volunteer. Finally, we hired an executive manager
  to provide additional administrative support to all the units in the OIG. She has been a
  valuable addition to the team.

  In light of the above, at this point in time, other than the Deputy Inspector General
  position, we are at full capacity, with five auditors, including the AIG for Audits; five
  evaluators, including the AIG for evaluations; five investigators, including the AIG for
  Investigations; and three administrative support employees. Our IG counsel remains on an
  extended detail with the U.S. Department of Treasury.


                   Semiannual Report to Congress   October 1, 2006 - March 31, 2007
Advise and Assistance Provided
  to the Agency and Others
  During this reporting period, we provided advice to management on a number of
  serious issues that were brought to our attention. This advice was conveyed through
  written communication as well as oral briefings and meetings with the Director of
  the agency and other senior-level Peace Corps officials.

                     Referrals to the Office of Inspector General

  In an effort to effectively and efficiently meet our responsibilities under the Inspector
  General Act of 1978, as amended, 5 U.S.C. App., the Office of Inspector General
  issued guidance on January 18, 2007 to the agency on referring matters to our
  office. According to section 2 of the Inspector General Act, the Office of Inspector
  General was created: (1) “to conduct and supervise audits and investigations
  relating to the programs and operations of the [Agency]”; (2) “to provide leadership
  and coordination and recommend policies for activities designed (A) to promote
  economy, efficiency, and effectiveness in the administration of, and (B) to prevent
  and detect fraud and abuse in, such programs and operations;” and (3) to keep
  the Director of the Agency “and the Congress fully and currently informed about
  problems and deficiencies relating to the administration of [the Agency’s] programs
  and operations and the necessity for and progress of corrective action.”

  OIG guidance sent to all Peace Corps employees reiterated that pursuant to Peace
  Corps Manual section 861, all Peace Corps personnel (domestic and overseas)
  should report instances of “misconduct or wrongdoing” to the OIG. Furthermore,
  the guidance reminded Peace Corps employees that under a specific Peace Corps
  protocol, the OIG has the primary authority for response to and coordination of
  all activities associated with violent crimes, involving Volunteers, including death,
  rape, and assault. In addition, we reiterated that all Peace Corps employees, Trainees,
  Volunteers, experts, consultants, and all other Peace Corps personnel are required
  by Peace Corps Manual section 861 to cooperate fully and truthfully with the OIG
  during the course of an audit, investigation, review, or inspection.

  The guidance further explained that compliance with the reporting requirements
  will advance the ability of the OIG to investigate matters within our jurisdiction and
  improve the integrity of Peace Corps programs and operations.

         Support Overview for Volunteers in Highly Challenged Posts

  The OIG provided special assistance to a working group headed up by the Office of
  AIDS Relief with respect to the agency’s efforts to enhance and improve Volunteer


    Peace Corps Office of Inspector General                                       
support to those working in countries with high HIV prevalence. We had
identified disturbing trends in several Peace Corps posts regarding the adverse effect
on Peace Corps Volunteers because of their work in HIV-prevalent countries. We
provided the Office of AIDS Relief with the results of the data that we collected
from several countries regarding the emotional difficulties that Volunteers engaged
in this kind of work were experiencing, which was then utilized as a basis for
devising and developing agency strategies to address these issues.

We also worked with the Office of Special Services to provide specific suggestions
with regard to the following areas: (a) training for Peace Corps staff in identifying
mental health needs; (b) training to increase Volunteers’ understanding and coping
strategies for the emotional demands that they face; and (c) training Volunteers in
peer support skills and the development of a post support network. Based upon
these discussions, the Office of Special Services developed a strategic plan for
providing support for Volunteers in these highly challenged posts, which involves
practices and procedures to be implemented from the recruiting and screening
phases throughout the Volunteer’s overseas service and continuing with post service
support.

              Africa Region’s Changes in Response to IG Issues

OIG staff met with the senior management and the regional director for the Africa
Region on January 11, 2007 to discuss ways the region could improve on the
management of its posts.

Representatives from both the OIG’s evaluation and audit units participated in
this meeting, requested by the Africa region, in which we shared our findings
and observations from our numerous audits and evaluations of posts in Africa
over the years. Specific areas discussed were communication concerns relating to
the region’s responsiveness to post issues, the appropriate levels of post staffing,
post administration support and management issues, methods to enhance the
effectiveness of staff at posts, the need for ongoing mentoring activities after
training has been conducted, and how to better utilize OIG reports. We also
provided examples of where the region’s interactions and support of posts were
effective and resolved lingering issues and concerns abroad.

The Africa regional director thanked us for our input and stated that our comments
had been most helpful.

             OIG Assistance on Revision of Overseas Financial
                         Management Handbook

The OIG audit team reviewed and provided suggestions to the Office of the
Chief Financial Officer during their revision of the agency’s Overseas Financial


                 Semiannual Report to Congress   October 1, 2006 - March 31, 2007
Management Handbook (OFMH). The OFMH is a significant document to the
agency, because it provides the detailed guidance for consistent financial operations at
Peace Corps’ overseas posts.

Based on their extensive post auditing experiences, the OIG audit team reviewed
each revised chapter and provided substantive suggestions and comments to ensure
that the OFMH was in compliance with federal requirements and regulations such
as those mandated by the U.S. State Department’s Foreign Affairs Manual (FAM)
and related Handbook, and to strengthen the financial management processes.
For example, we recommended that specific language be added to the section on
procurements to strengthen the prohibition on circumventing the procurement
ceiling. We received appreciative comments on our suggestions from the Office of
the Chief Financial Officer.

                          Agency Response to Data Breaches

In reaction to a memorandum issued by the Office of Management and Budget at
the end of fiscal year 2006 that strongly encouraged each agency to establish plans
for responding to data breaches which could result in identity theft, Peace Corps’
management requested OIG representation on the Peace Corps’ core response group
to ensure that the OIG is cognizant of possible identity breaches which may result
in law enforcement action. Representatives from both the Investigation and Audit
units participated in the core response group and helped coordinate the agency’s
procedures in development. 

                                African Development Bank

On February 7, 2007, the OIG met with the African Development Bank’s director
of the Office of the Auditor General and other Bank senior management to provide
insight into the operations of an Office of Inspector General and our experiences in
Africa detecting waste, fraud, and other crimes – including cyber crime. We also
provided the representatives from the Bank with a blueprint to develop a system
to protect “whistle-blowers” and to establish an anonymous complaint or hotline
system.

In March 2007, based in part on expertise provided by our office, the Bank officially
established a comprehensive policy on the handling of whistle blowing complaints
that will strengthen the Bank’s system of integrity and the fight against corruption.
The African Development Bank staff expressed their thanks and appreciation for our
meeting and expressed hope for continued fruitful cooperation and exchange.




    Peace Corps Office of Inspector General                                       
Audits and Program Evaluations

                                                 Overview

 The Peace Corps’ OIG focuses principally on the programs, financial and administrative
 operations, and staff support that sustain Peace Corps Volunteers serving around the world.
 We accomplish this through audits and evaluations of the agency’s posts overseas and its
 functions in headquarters and domestic recruiting offices.

 Both individual staff members and multi-disciplined teams carry out these reviews. During
 this period, when teams visited the same overseas post, we published a single, combined
 report. For some highly technical audits, we also contract with firms and individual experts.

 Audits examine operations and financial transactions to ensure that good management
 practices are being followed and that resources are adequately protected in accordance with
 laws and regulations. Our audits are conducted in accordance with generally accepted
 government auditing standards issued by the Comptroller General of the United States.

 Most of our audits focus on the operations and management of Peace Corps’ overseas posts,
 which include a review of financial and administrative practices and the management and
 security of resources. We also conduct audits of specific headquarters and regional activities,
 as well as contract and follow-up audits, as needed. In addition, the Accountability of Tax
 Dollars Act provides the OIG with the responsibility for an annual audit of Peace Corps’
 financial statements. Furthermore, the Federal Information Security Management Act
 specifies that the OIG annually review the information security program of the agency, as
 part of our auditors’ responsibilities.

 Program Evaluations review the operation and administration of a specific unit of the Peace
 Corps or may involve a limited review of a particular problem, issue, or function.

 Most evaluations are of overseas posts and provide management with a comprehensive
 assessment of how overseas programs are functioning. This includes a review of the
 Volunteers’ sites and assignments, their integration into their communities, the quality of
 their training, the quality of the support provided to them, and the adequacy of the post’s
 administrative infrastructure to manage the program. Evaluations focus particularly on
 the effectiveness, satisfaction, and well-being of the Volunteers, including their housing,
 health care, and safety. Evaluators issue a survey to all Volunteers in country, interview a
 representative sample of one-third or more of the Volunteers at their sites, and interview
 appropriate Peace Corps staff and some of the Volunteers’ co-workers and supervisors.




       Peace Corps Office of Inspector General                                      
                       Summary of Audits and Evaluations

             Peace Corps Fiscal Year 2006 Financial Statement Audit

Under a contract monitored by the OIG, Urbach Kahn and Werlin LLP (UKW), an
independent certified public accounting firm, performed the audit of Peace Corps’
FY 2006 financial statements in accordance with Government Auditing Standards,
Office of Management and Budget (OMB) Bulletin No. 06-03, Audit Requirements
for Federal Financial Statements and applicable sections of the GAO/President’s
Council on Integrity and Efficiency (PCIE) Financial Audit Manual. In its report,
dated November 10, 2006, UKW issued a qualified opinion on the balance sheet
as of September 30, 2006 and disclaimed an opinion on the balance sheet as of
September 30, 2005 and for the related statements of net cost, changes in net
position, financing, and budgetary resources for the years ending September 30, 2005
and 2006.

Except for not maintaining adequate accounting records and sufficient supporting
documentation for certain obligations recorded, the balance sheet as of September
30, 2006 presents fairly in all material respects, the financial position of Peace Corps
in conformity with accounting principles accepted in the United States. Peace
Corps had not maintained adequate accounting records and sufficient supporting
documentation for material balances presented in the balance sheet as of September
30, 2005; and therefore, UKW was not able to sufficiently extend auditing
procedures to determine the extent to which the statements net cost, changes in net
position, financing and budgetary resources may have been affected by this condition.

Although, the qualified opinion on the September 30, 2006 balance sheet represents
progress made by the Peace Corps in improving its overall financial management
during FY 2006, UKW reported the following four material weaknesses in its
Independent Auditor’s Report on Internal Control:

  •	     Peace Corps did not have adequate controls over its financial management
         structure, monitoring processes, and financial reporting.
  •	     Peace Corps did not have adequate controls over its accounting business
         processes.
  •	     Peace Corps was not able to substantiate material prior period account
         balances.
  •	     Peace Corps did not have adequate controls over its information systems
         control environment.

UKW’s test of compliance with specific laws and regulations, exclusive of the Federal
Financial Management Improvement Act (FFMIA), disclosed no instances of
noncompliance with laws, regulations and provisions of contracts and grants that are
required to be reported under Government Auditing Standards and OMB Bulletin
No. 06-03. However, UKW’s tests disclosed instances where Peace Corps financial

       Peace Corps Office of Inspector General                                     
management systems did not substantially comply with federal financial management
system requirements as required in FFMIA.

As required by OMB Circular A-136, Financial Reporting Requirements, this audit
report has been incorporated within The Peace Corps Performance and Accountability
Report: Fiscal Year 2006 and was not issued as a separate OIG audit report. In
addition, a separate letter describing internal control weaknesses which do not meet
the definition of reportable conditions, was issued directly to agency management as
required by government auditing standards.

       Review of the Agency’s Federal Information Security Program
 
The Federal Information Security Management Act (FISMA) requires each federal
agency to establish security protections and a program to secure its information
systems from unauthorized access, use, disclosure, modification, and other harmful
impacts by using specific guidelines established by the National Institute of Standards
and Technology.  In addition, FISMA requires the OIG to review the security
program annually.  Because OMB is required to report to Congress on the progress
made by federal agencies as a whole, OMB developed a data collecting process which
combines reporting from each federal agency and their respective OIGs to measure
the progress of developing and institutionalizing each security program.

Through a contract with an independent accounting firm, we assessed the status of
Peace Corps’ information security program while providing responses to the OMB
data collection instrument. At the completion of that assessment, it was determined
that the agency had not progressed to a level beyond what was reported during
the fiscal year 2005 FISMA review, and further determined that it would be more
beneficial to conduct a focused review assessing the privacy and vulnerability of
the agency’s external website and intranet to ensure agency systems are adequately
protected against the access and/or loss of privacy-related information. The results of
this assessment will be included in the next Semiannual Report.

                                      China: Audit

We conducted an audit of Peace Corps/China March 7 - 25, 2006. The Peace Corps/
China office was opened in 1993 and the first group of 18 Volunteers arrived later
that year. At the time of our visit, there were approximately 104 Volunteers working
in the program areas of environmental education and English education and resource
development.

The post’s greatest weakness appeared to be in the inconsistency and incompleteness
of the contract documents. The post also had not received authorization to hire a
contractor as a cashier or alternate cashier although the post had documented the
need to use a contractor for this function.


 10                Semiannual Report to Congress   October 1, 2006 - March 31, 2007
Management concurred with 18 recommendations and did not concur with one
recommendation; we accepted their non-concurrence. At the end of the reporting
period 17 recommendations are closed and two remain open.

                                   Kyrgyz Republic: Audit

We conducted an audit of Peace Corps/Kyrgyz Republic October 30 - November 16,
2006. The Peace Corps began its program in Kyrgyz Republic in 1993. The program
was suspended following the events of September 11, 2001 and re-opened in 2002.
At the time of our visit, 113 Volunteers, including seven who were completing their
service, were working in three project areas: English language instruction, sustainable
organizational and community development, and health promotion.

Peace Corps/Kyrgyz Republic’s financial and administrative operations, in general,
were functioning effectively and complied with Peace Corps policies and federal
regulations. However, areas of improvement were noted, including:

•	 Requiring the cashier to change the combination to the imprest fund safe.
•	 Conducting an independent survey to evaluate the Volunteer living allowance.
•	 Obtaining intelligence background information certifications and security
   clearances for all personal services contractors.
•	 Requesting staff to sign their travel authorizations.
•	 Properly monitoring and controlling medical supplies in the custody of Volunteer
   wardens.

Management concurred with all 32 recommendations. At the end of the reporting
period 25 recommendations are closed and seven remain open.

                                 Uganda: Follow-up Audit

During the period September 18 – 22, 2006, we conducted a follow-up to our
audit carried out March 1 – 21, 2005. We reviewed management’s compliance
with the actions agreed upon for all 56 recommendations. We re-opened 14
recommendations that were previously closed and closed four recommendations that
were open.

A principal finding from our follow-up audit was the failure of the post to address
the weaknesses in its imprest fund operation. We also found outstanding debts that
remained uncollected, some dating back to 2002.

At the end of this reporting period, 47 recommendations are closed and nine remain
open.




    Peace Corps Office of Inspector General                                      11
                               Zambia: Follow-up Audit

During the period September 8 – 16, 2006, we conducted a follow-up to our audit
carried out August 8 – 25, 2005. Management had concurred with nine of the audit
recommendations and did not fully concur with three recommendations in our
original audit report.

We reviewed management’s actions for all 12 recommendations; we verified and
closed nine recommendations and re-opened one recommendation that was previously
closed. We found unallowable expenses that were still outstanding as collection had
not been made or management had not approved the expense.

At the end of this reporting period, 11 recommendations are closed and one remains
open.

                    CHP International, Inc.: Contract Audit

CHP International, Inc. (CHP) is a management, training and consulting firm that
has conducted training for the Peace Corps since 1973 and has provided pre-service
and in-service training to over 10,000 Peace Corps Volunteers. Peace Corps currently
has one training contract with CHP for in-service language training in Paraguay.

We audited the indirect cost rates, incurred indirect costs, and direct costs for contracts
with CHP for the periods ended December 31, 2004 and December 31, 2005. We
also evaluated CHP’s information and communication systems; self-monitoring
practices; and methods for capturing indirect cost, cost allocation, indirect rate
calculations and other applications. In addition, we evaluated CHP’s accounting
system, internal controls, and compliance with the applicable cost accounting
standards and Federal Acquisition Regulations.

We noted that CHP’s management and internal control activities needed
improvement. CHP did not have written policies and procedures that documented
financial management functions and other business practices, which are the foundation
for a system of internal controls. Accounting duties were not adequately segregated.
CHP had not submitted a claim/cost submission or a certificate of final indirect cost
rates until requested by the auditors.

We disagreed with CHP’s general and administrative rates for 2004 and 2005 as
submitted for audit. We took no exception with CHP’s fringe benefits rates submitted
for 2004 and 2005.

Our report was submitted to the Office of Acquisitions and Contract Management
(OACM) and contained a list of recommendations pertaining to issues such as CHP’s
management and internal controls. OACM is working to determine appropriate
actions necessary to resolve the issues identified.

   12               Semiannual Report to Congress   October 1, 2006 - March 31, 2007
                      Ecuador: Audit and Program Evaluation

We conducted an audit and program evaluation of Peace Corps/Ecuador May 15
- June 2, 2006. Ecuador first welcomed Peace Corps Volunteers in 1962 and 132
Volunteers were serving in Ecuador at the time of our visit.

We found the post’s administrative operations well run by a qualified and experienced
administrative officer and a highly motivated staff. However, we did find some
administrative processes that needed to be improved and corrected. Specifically, the
country director had signed an agreement with the Ecuador Ministry of Agriculture
by which the Ministry agreed to “assign” PL-480 funds for Volunteer projects
($250,000 for 2004-05 and prospectively $200,000 for 2006-07). The management
of this funding raised several issues including whether there was adequate oversight
of the expenditures and accounting for the funds. The post had also not developed a
program plan in which to incorporate the country director’s emphasis on the use of
PL-480 funds for Volunteer income-generating projects.

In addition, we uncovered concerns with outstanding travel advances, billing logs and
unaccounted for bills of collection, the maintenance of Volunteer property, furniture
and equipment as well as medical supplies and vehicles.

In the evaluation, we found that certain Volunteers in the rural health and sustainable
agriculture projects were being placed in insufficiently prepared sites and were
unclear about their assignments. In addition, numerous staffing changes had caused
challenges at the post.

At the end of this reporting period, 21 recommendations are closed and 27 remain
open.

                   South Africa: Audit and Program Evaluation

We conducted an audit and program evaluation of Peace Corps/South Africa
February 27 – March 17, 2006. The first group of Peace Corps Volunteers arrived
in South Africa in February 1997.  Currently, PC/South Africa has two projects:
education and NGO capacity building. Seven Volunteers in the NGO capacity
building project were funded by the President’s Emergency Plan for AIDS Relief
(PEPFAR). At the time of this review, 136 Volunteers were serving in four of South
Africa’s nine provinces.

A number of issues we found in the program evaluation and audit that we conducted
in 1999 remained or have re-emerged. Among those were poor planning for the pre-
service training, ineffective programming, disparity between the project plan and the
skill levels of recruited Volunteers, and deficiencies in the cross-cultural training, site
preparation, and safety and security.


    Peace Corps Office of Inspector General                                          13
During the audit, we found that the post’s internal control environment posed a
high risk of loss of agency resources and difficulties in ensuring the safety of the
Volunteers a financial and administrative operations did not fully comply with Peace
Corps policies and federal regulations. For example, the post did not comply with
Peace Corps billing and collection and property management policies or follow
Peace Corps policy in maintaining Volunteer property held for safekeeping. Further,
the post failed to value, record or collect an estimated $28,000 in host country
contributions and did not maintain documents supporting its decision to change the
post’s vehicle mix.

In the program evaluation, we found that both project plans were out-dated and in
fact, the project plan for the education project was the original plan proposed by
the South Africa entry assessment team. As we determined in 1999, the education
project still did not provide a realistic role for the Volunteers with no teaching
experience. Site preparation in the education project also did not prepare the schools
to use the Volunteers appropriately.

In addition, we found that the most recent pre-service training had been poorly
staffed, planned and managed, and language training while critical for Volunteers to
reach the post’s and host country’s goals, had not been a priority. The technical and
cross-cultural training also did not prepare the Volunteers adequately for their roles
and did not address significant issues and challenges.

Further, the safety and security needs of urban-placed NGO capacity building
Volunteers were not sufficiently addressed, leaving some of these Volunteers
vulnerable.

At the end of this reporting period, 38 recommendations are closed and 14 remain
open.

                         Cameroon: Program Evaluation

We conducted a program evaluation of Peace Corps/Cameroon March 2 - March
24, 2006.  The Peace Corps has had a continuous presence in Cameroon since 1962,
focusing initially on education and rural development. There were 82 Volunteers in
country at the time of our evaluation working in the areas of education, agroforestry,
health, and small enterprise development.

We found that many Volunteers did not have full-time primary assignments to keep
them productively occupied at their sites. Some of the causes for this finding were
weak site development, mismatches between training competencies and site needs
and ineffective staff support. For example, small enterprise development project
Volunteers were inappropriately placed at micro-credit banks, where they have
difficulty meeting their project goals. In addition, many of the Volunteers who were


  14                Semiannual Report to Congress   October 1, 2006 - March 31, 2007
recruited for the agroforestry and health projects did not have the requisite skills and
experience. Without the necessary skills, Volunteers were frustrated and less invested
in their work.

In addition, the quality of selection and preparation of Volunteer sites was frequently
inadequate. Volunteers reported that because host organizations were not adequately
prepared, these organizations were unsure on how to use a Volunteer effectively and
in a few cases, even unaware that they were receiving a Volunteer.

Finally, we found different levels of Volunteer support in different projects and in
different regions of the country. Volunteers in the northern part of the country
reported receiving less support and supervision than those in other regions. There
were also safety and security issues for those Volunteers in the Grand North.

At the end of this reporting period, three recommendations are closed and 22 remain
open.

                        Summary Report: Best Practices Study

This report, titled “Blueprint for Success,” summarized the key lessons from our
landmark and comprehensive study of effective Peace Corps programs in Niger,
Malawi, Mauritania, Panama, Paraguay, Honduras, Georgia, Ukraine, and the
Philippines, which was reported in the previous Semiannual Report. The purpose
of the study was to document how these nine posts have built and implemented
programs that Peace Corps considers to be of high quality.

We identified the following seven characteristics as key to effective programming:

    •	 A priority on developing substantive primary assignments for Volunteers.
    •	 The quality of leadership exhibited by the country directors.
    •	 Exceptional program, training, and administrative staff committed to the
       mission of the agency and Volunteer support.
    •	 Volunteers’ participation in many aspects of program, training, and policy
       development.
    •	 Systematization of transparent processes and development of organizational
       structures to minimize the potential disruptions caused by the short tenure of
       U.S. direct hire staff and to maintain quality control through documentation,
       monitoring, and evaluation.
    •	 Effective Volunteer training.
    •	 Strong technical, medical, administrative, and personal support for the
       Volunteers.

This best practices report was provided to all Peace Corps country directors and many
Headquarters offices and was met with an enthusiastic response both from overseas
and Washington, D.C.


    Peace Corps Office of Inspector General                                       15
                           Investigations

                                                Overview
                                                    
The investigative unit responds to allegations of criminal wrongdoing, fraud, and violent
crimes that are forwarded to the Office of Inspector General through audits and evaluations,
hotline complaints, and Volunteers, Trainees, staff, and the public.  We also investigate
ethics and conflicts of interest violations.  The Office of Inspector General is charged by law
with the conduct of criminal investigations. The Inspector General is authorized by statute
to develop policy for the conduct of investigations, and to coordinate and supervise both
domestic and overseas investigations. Investigators work with other offices within the agency
or with other agencies, including Immigration and Customs Enforcement (ICE), the State
Department’s Diplomatic Security Services (DSS), the Federal Bureau of Investigation (FBI),
and the Department of Justice public prosecutors, as appropriate. 
 
With over 7,000 Volunteers in more than 70 countries, incidents of crime against them
are inevitable. Part of the agency’s support to Volunteers who become victims is a protocol
under which country directors report incidents of violent crimes to the OIG. The OIG
manages and coordinates the agency’s investigation and prosecution efforts from the initial
incident to the closing of the case.  We coordinate the investigation of the crimes with the
country director, headquarters offices, DSS, and the embassy’s Regional Security Officer
(RSO).  We work with the RSO to develop the best evidence for local trial. This might
include preparation of witness statements, developing photo spreads, or obtaining DNA
analysis.  As needed, we accompany witnesses back to the country where the crime occurred
for lineups, depositions, and trial.  We consult with the Department of Justice’s Office of
Foreign Litigation and receive assistance from various law enforcement entities including the
FBI and their forensic laboratory at Quantico, overseas legal attachés, and the Secret Service
Forensic Services Division.  Our role in coordinating the investigation and assisting in the
prosecution of violent crimes against Peace Corps Volunteers requires a high volume of work
from our investigators and also gives us the opportunity to help curb violence against Peace
Corps Volunteers.

The OIG operates a 24/7 duty officer system for country directors to make direct and
immediate contact with criminal investigators in this office to coordinate the response to
violent crimes against Volunteers and assist the victims of crime.  Early intervention and
coordinated support has enhanced the quality and success of our overseas investigations.
We may, in limited circumstances, also arrange for a local lawyer to be hired to help the
prosecutor in making the case against the perpetrator of the crime.

The 2004 “Equal Access to Justice Act” and other Congressional enactments, as well as the
Attorney General’s guidance, provide a prescriptive framework for the OIG’s victim advocacy
responsibilities and authority.

      Peace Corps Office of Inspector General                                     16
                         Memorandum of Agreement with
                     the Armed Forces Institute of Pathology

We formalized our working relationship with the Armed Forces Institute of
Pathology (AFIP) through a Memorandum of Agreement with AFIP, signed by
the agency’s Director on March 30, 2007. This Memorandum allows the Peace
Corps Office of the Inspector General to request forensic pathology investigation
services from the Armed Forces Medical Examiner. These services could include,
autopsy, identification, analysis and assessment of cause of death and other aspects
of a postmortem examination. AFIP will also provide the OIG with a final report
of its investigation and with appropriate progress reports pending the final report.
The Memorandum of Agreement allows us to access resources to more accurately
determine the cause of death when investigating a Volunteer’s death.

           Investigation of a Volunteer’s Disappearance in Bolivia

The OIG investigative unit continues investigating the disappearance of a Volunteer
in Bolivia that occurred more than six years ago. We have retained two expert search
managers from the National Park Service with extensive Grand Canyon search
experience, and we plan to enlist the assistance of trained search dogs. An OIG agent
is leading the team in Bolivia assessing the area, taking coordinates, and determining
how the search will be conducted as well as determining what follow-up investigatory
work is needed.

 OIG Investigations of Federal Employees’ Compensation Act Recipients

The OIG has made great strides during this reporting period in its investigation of
false claims and unreported changes to the status of former Peace Corps Volunteers
and staff that receive compensation via the Federal Employees’ Compensation Act
(FECA). FECA compensates civilian federal employees who are disabled as a result
of injuries incurred in the course of their employment. It provides for wage loss
compensation, medical care, rehabilitation, attendant’s allowance, and survivors’
benefits. In the event of death due to employment, FECA provides for funeral and
burial expenses and for the administrative costs of terminating a decedent’s employee
status with the federal government.

FECA is administered by the Office of Workers’ Compensation Programs (OWCP),
Employee Standards Administration at the U.S. Department of Labor (DOL). The
enabling legislation authorizing FECA claims (5 U.S.C. § 8101 et seq.), addresses
Peace Corps specifically within the context of FECA, and provides that Volunteers
enrolled in the Peace Corps under the Peace Corps Act are entitled to FECA
compensation for injuries or illnesses suffered during their service (see 5 U.S.C. §
8142.) In addition, Peace Corps staff members are statutorily entitled to the full
coverage of FECA (5 U.S.C. § 8101(1).


    Peace Corps Office of Inspector General                                      17
                   Unique Challenges at Peace Corps

The Peace Corps, for statutory reasons, and because of its Volunteer workforce,
faces unique challenges with regard to limiting costs and ensuring efficiency in its
FECA program. The Peace Corps has approximately 1,300 open FECA claims and
estimates that it spends approximately $11,000,000 in FECA claims for former
Volunteers and staff who were injured or became ill on the job. The Peace Corps
Office of Medical Services (OMS) also estimated that over a million dollars is
paid annually by the agency for workers’ compensation disability claims for which
individuals do not submit any medical bills to the Department of Labor during the
same fiscal year.

The Peace Corps is unique in the FECA program in several respects. While generally,
under FECA regulations, in order to establish a FECA claim, a claimant must show
that the injury, disease or death occurred while the employee was in the “performance
of duty” or that the medical condition for which compensation is claimed is
causally related to the claimed injury (20 C.F.R. § 10.115), because Volunteers are
considered to be on duty 24 hours a day and 7 days a week, the regulations provide
for a presumption that any injury sustained by a Volunteer while he or she is located
abroad has been sustained in the performance of duty, and any illness contracted by
a Volunteer during Peace Corps service is proximately caused by the employment.
Because of the regulatory presumption, the standard and burden for a Peace Corps
Volunteer to establish a FECA claim is considerably lower than for claimants in
other federal agencies. However, according to 20 C.F.R. § 10.730, this presumption
may be rebutted by specific evidence that the injury or illness was caused by willful
misconduct on the part of the Peace Corps Volunteer, that it was proximately caused
by intoxication from alcohol or illegal drugs, or that it was a pre-existing condition.

                  Strategic Plan to Investigate FECA Claims

Peace Corps OIG developed a multi-faceted approach to dealing with potential
fraud, waste and abuse in the Peace Corps FECA system. The Investigation unit
implemented the following measures:

•	 Coordinated with OMS to ensure that initial claims are closely scrutinized by
   the agency before the claims are accepted and sent to OWCP for review. In
   appropriate cases, ensured that documentation will be provided to OWCP that
   demonstrates why there is no relationship between the injury/condition and the
   Volunteers’ service, to include past history of the Volunteer, evidence that he/she
   failed to disclose a pre-existing condition, any evidence of drug/alcohol use or
   abuse, or any other medical information that would controvert the claim.

•	 Coordinated with the Peace Corps Office of General Counsel to ensure support
   in defending the agency in appeals to negative determinations of claims.


 18                Semiannual Report to Congress   October 1, 2006 - March 31, 2007
•	 Sent out mass mailings to all Peace Corps FECA claimants reminding them of
   their obligations under FECA to report any changes regarding their disability
   status to OWCP. The purpose of these mass mailings were to encourage those
   who no longer meet disability status to voluntarily take themselves off the rolls
   or reduce their benefits without the need for OWCP and OMS personnel to
   scrutinize claims or have Peace Corps OIG investigate claims.

•	 Highlighted claims that have potential fraud indicators, such as those with no
   or low medical costs but high compensatory benefits; death claimants who were
   young when their spouse died, but have no record of being remarried; high
   medical costs involving potentially addictive drugs; and soft tissue injuries, like
   carpel tunnel syndrome and lower back pain, as well as nonspecific diagnoses
   of depression or a mental disorder for targeted correspondence. Identification
   and targeting of potential fraud included OMS and OWCP document reviews,
   as well as traditional law enforcement techniques, involving subpoenas, credit
   checks, social security records coordination, and surveillance activities.

•	 Visited Department of Labor OWCP regional offices to coordinate action on
   Peace Corps FECA claims and synchronize reviews to ensure that Peace Corps
   FECA claimants continue to file Form 1032 and update their status information
   on a timely basis.

                                 Recent Results Achieved

Continued coordination with OMS and OWCP, coupled with OIG surveillances,
target letters, and investigative activities, led to OWCP denying or reducing claims
in numerous cases. Specifically, during the past two reporting periods, the OIG sent
letters to over 1,200 FECA recipients reminding them to report changes in their
disability, current income, address, and other pertinent information to OMS and
OWCP. Letters were also sent to specific recipients who we had reason to suspect
possible FECA violations. Within a relatively short period after the OIG mailings,
more than 500 FECA recipients voluntarily dropped off the rolls, which resulted in a
savings of approximately $500,000.

•	 During this reporting period, the OIG disclosed two cases of overpayments.
   The OIG used a mail cover and surveillance to investigate whether a claimant
   had supplemental income sources. The mail cover failed to disclose other
   sources of income; however, an OMS review revealed that the claimant had been
   compensated at an improper rate schedule.  The overpayment was determined
   to be $175,000. The effect of this investigative effort was an annual savings for
   the agency of $21,551 and estimated savings over the lifetime of the claim of
   $387,919.

    In another instance OMS and the OIG found a claimant had received $9,102 in
    overpayment. This led to an annual savings on the part of the agency of $18,204

    Peace Corps Office of Inspector General                                       19
    with the estimated savings to the Peace Corps over the lifetime of the claim being
    $873,792.

•	 The OIG conducted surveillance on a claimant who was engaged in activities
   inconsistent with his alleged injuries. The OIG recommended that OWCP
   request a medical examination of the claimant to evaluate his injuries and
   suitability for work. In October 2006, OWCP changed the status of the claimant
   to medical only, resulting in an annual savings to the Peace Corps of $18,783.25.
   Actuarial savings to the agency over the life of this claim is estimated at over
   $806,000.

                       Active Investigations of FECA Cases

•	 Peace Corps OIG issued a subpoena for medical records of a former Volunteer
   that had been injured and institutionalized since 2003. An OIG agent met
   with hospital administrators who informed him of overpayments totaling
   approximately $58,000, dating back to calendar year 2003. Additionally, hospital
   administrators disclosed a DOL payment error that resulted in $10,596.00 in
   benefits going to the wrong caregiver. We continue to investigate this matter.

•	 We investigated a FECA fraud case with the DOL/OIG in Florida that disclosed
   that the FECA claimant had been deceased for 18 months. Our investigation
   revealed that deposited FECA funds were accessed by a family member who failed
   to notify DOL/OWCP that the claimant was deceased. Peace Corps/OIG and
   DOL collected evidence to bring false claims and theft charges against the subject
   who had fraudulently utilized approximately $20,000 of the deceased claimant’s
   benefits. We are presently working with an Assistant U.S. Attorney to determine
   if a prosecution may be brought.

                    Violent Crimes Against Volunteers

Overseas posts are required to report immediately to the OIG and RSO any incident
of a specified list of violent crimes against Volunteers. Early notification and response
is critical to a successful investigation and prosecution, which may assist in a victim’s
recovery, serve as a protective deterrent, and remove violent persons from society. 
 
Incidents and crimes to be reported to the OIG and RSO are:

    •	   Volunteer Death (under any circumstances)
    •	   Kidnapping
    •	   Rape and Attempted Rape
    •	   Major Sexual Assault
    •	   Robbery
    •	   Aggravated Assault



   20               Semiannual Report to Congress   October 1, 2006 - March 31, 2007
    •	   Major Physical Assault
    •	   Burglary with Volunteer/Trainee present (or attempted)
    •	   Death Threat
    •	   Intimidation/Stalking (also Domestic Violence)
 
Crimes are reported to the OIG through telephone number 202-692-2911 or
the crime hotline violentcrimehotline@peacecorps.gov, from which the Inspector
General and investigative personnel receive notification on a 24/7 basis to assure
prompt assistance and coordination in their investigation.  For overseas crimes, the
OIG engages with the Criminal Investigative Liaison Branch (CIL) of the Bureau of
Diplomatic Security to facilitate communications and support to the victim and to the
Peace Corps post. 
 
We have also established a dedicated law enforcement liaison line (911@peacecorps.
gov) for other federal and foreign law enforcement agencies to access OIG
investigative personnel on a 24/7 basis.  

We have three investigators whose primary responsibility is to oversee the cases
in one of the agency’s three geographic overseas regions: Africa; Inter-America
and Pacific; and Europe, Mediterranean, and Asia.  This allows them to develop
closer coordination with overseas counterparts and a better understanding of the
characteristics of each country and its criminal justice system.  A fourth investigator is
overseeing the agency’s FECA initiatives.

               Closed Cases of Violent Crime Against Volunteers

•	 As reported in the previous Semiannual Report, a Pacific region Volunteer was
   raped in her residence by a host country national. The subject was remanded to
   the Supreme Court for trial. In December 2006, an OIG agent returned to the
   post to accompany the Volunteer to trial. The subject pled guilty and received a
   sentence of six years in prison and formally apologized to the victim.

•	 In the Caribbean, a Volunteer was the victim of an aggravated assault by a host
   country national acquaintance while at home. The Volunteer was transferred
   to another site, but subsequently left service early and returned to her home of
   record. The Volunteer expressed a desire to prosecute the suspect, and the OIG
   agent coordinated with the post and the RSO to return the former Volunteer
   to country and file a formal declaration with the local police. The suspect was
   arrested, and the OIG agent accompanied the former Volunteer to court. The
   defendant pled guilty to assault and was sentenced to six months in jail.

•	 In a Caribbean country, a Volunteer suffered an injury during a landlord/tenant
   dispute. An OIG agent accompanied the Volunteer, who had subsequently
   completed service, back to the post for the criminal proceeding. The landlord was
   sentenced to six months in jail and a $500 fine.

     Peace Corps Office of Inspector General                                        21
•	 A Volunteer serving in West Africa was attacked by two assailants outside her
   residence. One suspect who attempted to strangle the Volunteer and take her
   backpack escaped. The second suspect was apprehended at the scene and the
   Volunteer’s property was recovered. The status of the first suspect is unknown.
   The Peace Corps program in this country has been suspended and the case closed.

•	 The OIG received allegations that a Peace Corps Medical Officer (PCMO) made
   inappropriate comments and physical gestures to a medically evacuated Volunteer.
   The Volunteer denied any inappropriate physical/sexual contact by the PCMO
   and said she appreciated the PCMO’s care and attention. The investigation of the
   allegations was inconclusive and the case was closed. The PCMO was advised to
   maintain professional boundaries during the treatment of Volunteer patients.

                 Active Investigations of Violent Crime Cases

•	 The subject of a sexual assault case against a Volunteer in central Africa remains
   in custody awaiting trial. The Volunteer, who has subsequently left service, was
   accompanied back to the country by agency staff for the preliminary hearing. A
   trial date is scheduled for June 2007.

•	 A Volunteer was raped in a South American country by host country nationals.
   The Volunteer identified one of the suspects, a local police officer, through a
   photo and physical line-up. An OIG agent went to post and coordinated the
   investigative activities with the Assistant Regional Security Officer, local police,
   and the prosecutor. The OIG also forwarded evidence to the FBI lab for analysis.
   The suspect is in jail awaiting trial.

•	 As reported in the previous Semiannual Report, an OIG agent coordinated with
   the RSO to apprehend the perpetrator of an attempted rape of a Volunteer in
   South America that occurred in 2003. In February 2006, the RSO and local
   authorities arrested a subject and he was detained without bail. An OIG agent
   accompanied the former Volunteer back to the post to provide a legal deposition
   and to identify the suspect in a line-up. The public prosecutor filed formal charges
   against the subject and a trial date has been scheduled for April 2007.

•	 An attempted rape of a Volunteer occurred on a Pacific island. The OIG worked
   with the local police to identify and apprehend a suspect who confessed to the
   crime. The OIG advised the country director to collect DNA samples from the
   suspect while the suspect was in police custody. The suspect has been temporarily
   released, and a trial date is pending.

•	 In the Pacific region, a Volunteer was the victim of an aggravated assault in 2005
   and the trial was scheduled in the country’s Supreme Court during this reporting
   period. An OIG agent traveled to the post to coordinate with the prosecutor and
   provide digital photographs of the Volunteer victim’s injuries. The OIG agent

  22                Semiannual Report to Congress   October 1, 2006 - March 31, 2007
    also coordinated with the post to ensure witness appearances at the pre-trial
    deposition. When a key witness could not be located, the trial was remanded to
    the Magistrate’s Court and is still pending.

•	 In a South American country, a Volunteer was raped by a host country national.
   The Volunteer was medically evacuated, and an OIG agent worked with the
   Volunteer and a forensic sketch artist to develop a drawing of the suspect. The
   RSO and local police investigators identified and located a suspect. The OIG
   agent traveled to the post and assisted the Volunteer with the filing of a formal
   declaration. The Volunteer identified the suspect in a line-up, and the OIG agent
   and Volunteer attended a local detention hearing. The OIG agent met with the
   prosecutor to request DNA samples from the suspect and the judge ordered that
   DNA be obtained from the suspect. This case is pending a decision by the judge
   on a procedural matter.

•	 In northern Africa, local villagers thwarted an attempted rape of a Volunteer.  The
   assailant was apprehended, incarcerated, and is awaiting trial.

•	 A Volunteer in West Africa was sexually assaulted and the assailant fled. Local
   police learned the identity of the attacker from villagers, and he was arrested and
   taken into custody. Working together with the post and local police authorities,
   an OIG agent forwarded collected DNA evidence to the FBI lab for analysis. An
   OIG agent went to the post and testified in court about the chain of custody and
   the efficacy of DNA analysis. The trial verdict is pending.

•	 In an Eastern European country, a Volunteer was sexually assaulted by three
   host country nationals. The OIG coordinated with the US embassy and local
   police, and three subjects were identified and arrested within a week. The OIG
   is coordinating with the FBI crime lab and host country officials to ensure DNA
   evidence is admitted in the judicial proceedings. The Volunteer has returned to
   the country and continues to serve. The three subjects confessed to the crime
   and are currently waiting to be transferred to the capital of the country for trial.

•	 In southern Africa, an escaped felon attempted to sexually assault a Volunteer.
   The Volunteer victim’s screams attracted villagers who apprehended the assailant
   for police authorities. The case is awaiting trial.

•	 In a South American country, a Volunteer was raped by an acquaintance of
   another Volunteer. The suspect provided an official statement in which he
   indicated he did not have sexual or physical contact with the Volunteer victim.
   The Volunteer victim expressed a desire to prosecute. An OIG agent traveled
   to the country and coordinated with the post to get DNA evidence analyzed.
   Prosecution is pending DNA analysis.




    Peace Corps Office of Inspector General                                       23
•	 In a Central American country, a Volunteer was the victim of an aggravated
   assault by a host country national. The Volunteer was medically evacuated from
   the post, but expressed a desire to return to country and prosecute the assailant
   if he could be apprehended. The OIG agent coordinated with a forensic sketch
   artist to work with the Volunteer to develop a drawing of the suspect. The sketch
   was forwarded to the post and provided to the local police, who reported that the
   same individual had attacked other women in the same area. The case is pending
   identification and arrest of the assailant.

•	 In Southeast Asia, a suspect was released pending trial for the sexual assault
   and robbery of a Volunteer. The former Volunteer shows continued interest in
   prosecution of this matter.

•	 In the Caribbean, a Volunteer was raped at knifepoint in her residence by a
   host country national. The OIG coordinated with the RSO and the post on
   the collection of physical evidence. The Volunteer was medically separated
   from the Peace Corps, but is willing to prosecute if a suspect is identified and
   apprehended.

•	 A suspect forced his way into a residence and physically assaulted a Volunteer in a
   Central American country. A police report was filed and the police apprehended
   a subject, but the Volunteer said this was not her attacker. The OIG coordinated
   with the country director to collect evidence from the residence and the victim.
   The local police are still in search of the suspect.

•	 As previously reported in the Semiannual Report, a Volunteer homicide several
   years ago in central Africa remains an open investigation with the OIG, the RSO,
   and FBI. The Peace Corps program in the country has been closed, but the
   OIG continues to coordinate with both law enforcement agencies and the local
   authorities to seek justice. During this report period, the OIG was successful in
   recovering and returning some non-evidentiary sentimental personal effects of the
   decedent back to the family.

•	 As was previously reported in the Semiannual Report, a Volunteer in northwest
   Africa suffered a fractured arm while being raped by two men.  The suspects
   were apprehended, but one escaped after being in local police custody and was
   recaptured. The Volunteer, who has subsequently left service, has expressed
   interest in returning to the post when a trial is convened.

•	 A Volunteer in sub-Saharan Africa suffered a serious physical injury from a
   knife during a home invasion. The suspect was apprehended and is presently
   incarcerated. The Volunteer, who has recovered from the physical injury and
   completed service, has expressed interest in returning to the post when a trial is
   convened.


 24                Semiannual Report to Congress   October 1, 2006 - March 31, 2007
•	 In a West African country, a Volunteer was the victim of an attempted sexual
   assault by a co-worker. The subject has been identified and will be questioned by
   local police authorities.

•	 The investigation continues into allegations of a Volunteer raping a fellow
   Volunteer while both were in service in Eastern Europe. During the last reporting
   period, agents met with a second Volunteer who alleged that she was also the
   victim of a sexual assault by the same subject Volunteer. This case was presented
   to the District of South Carolina where it was declined. The case is currently
   being reviewed by the District of Oregon for potential prosecution.

•	 In an Eastern Asian country, a Volunteer was stabbed multiple times but survived
   through immediate intervention and emergency surgery. The local police
   continue their investigation. One subject has been apprehended and remains in
   custody while a second subject is at large.

•	 In West Africa, two Volunteers were robbed by a knife wielding assailant on a
   motorcycle. Neither of the Volunteers sustained serious injuries. Local authorities
   arrested a subject and a trial is pending.

•	 In East Africa, two Volunteers were accosted by an armed assailant. The
   Volunteers were robbed of cash, cell phone and belongings. The assailant was
   apprehended, and the property was recovered. This case is awaiting trial.

     Title 18 Criminal and Other Investigations Conducted

                        Investigations Leading to Disposition

•	 During the last reporting period, we began an investigation of a Peace Corps
   employee who was alleged to have committed ethics and criminal conflict of
   interest statute violations, 18 USC 205 and 208, by representing an outside
   party doing business with the agency, and also using his official office to promote
   a private interest. The OIG investigation revealed that there was evidence to
   substantiate both a criminal conflict of interest and ethics violations. The case was
   referred to the U.S. Attorneys Office in Los Angeles, who declined to prosecute
   in this matter. Both the employee and supervisor resigned as a result of the
   investigation.

•	 A Peace Corps employee was alleged to have committed ethics and criminal
   conflict of interest statute violations, 5 CFR Part 2635 and 18 USC § 208, by
   acting as his own landlord in a property lease with the U.S. Government and
   therefore receiving personal financial gain. The OIG investigation substantiated
   the allegations, and as a result, the employee resigned. The case was referred to
   the U.S. Attorneys Office, Public Integrity section, who declined prosecution in


     Peace Corps Office of Inspector General                                      25
   lieu of administrative actions and full restitution on the part of the employee. In
   February 2007, the agency received full restitution from the former employee.

•	 The OIG investigated a complaint concerning the improper disposal of
   computers in Eastern Europe.  The investigation disclosed that 33 excess
   government computers were donated or sold to local Peace Corps employees at
   a cost far below market value.  The method of computer disposal included price
   manipulation and collusion, and was not in accordance with federal policies. 
   The country director agreed to restitution efforts representing the value of the
   computers. 

•	 In a Caribbean country, a host country national employee was terminated
   for the theft of Peace Corps funds. A financial audit at the post revealed that
   the employee misappropriated government funds and misused a government
   purchase card in the amount of $4,854.87. Restitution was obtained from the
   employee’s severance income. The case was reviewed by local authorities for
   prosecution, but it was determined that the costs to bring the case to trial would
   exceed the monetary loss and thus, prosecution was not sought.

•	 A former Volunteer serving in Central Asia was the subject of an investigation
   during two previous SARC reporting periods. The Volunteer was alleged to have
   misappropriated federal money from a grant program. During this reporting
   period, the Volunteer confessed to embezzling money from the grant, repaid
   the amount of $766.13, and pled guilty in federal court to theft of government
   property. He was also assessed a special fine by the federal court and will
   hereafter possess a criminal record.

•	 The OIG investigated a complaint of fraud and cyber crime. In violation of
   federal laws, individuals had established a lending organization on the internet
   utilizing the Peace Corps logo and emblem. The matter was referred to the
   Office of General Counsel and criterion was established to remedy further misuse
   of the Peace Corps logo and emblem by the suspects.

•	 A former Volunteer reported that he was receiving unwanted solicitations and
   believed that his personal information was divulged via a Peace Corps’ database.
   The investigation disclosed that a contractor had shared the former Volunteer’s
   personal information with the contractor’s sister company. The former
   Volunteer’s information was removed from the company’s database.

•	 The OIG received a complaint involving violations of federal procurement
   regulations. Per federal regulations, quotations from a reasonable number of
   bidders, normally three, should be obtained to promote competition that is
   advantageous to the government. Additionally, solicitations from only one source
   require proper justification and approval. A Peace Corps employee submitted
   vouchers for services and supplies that were acquired and paid for before a valid

 26               Semiannual Report to Congress   October 1, 2006 - March 31, 2007
   obligation was authorized. The employee was not reimbursed for personal funds
   spent on the services and supplies and resigned in lieu of adverse administrative
   action.

•	 In the Pacific region, a Volunteer was alleged to have accessed a private citizen’s
   electronic mail (e-mail) accounts. An OIG agent traveled to the post and
   interviewed the Volunteer, the complainant, and witnesses. The OIG issued
   subpoenas for e-mail records from two internet vendors. We found no evidence
   to substantiate the claim that the Volunteer had accessed the complainant’s e-mail
   accounts. The case was closed.

•	 The Director of Human Resources Management reported that a U.S. direct
   hire employee in West Africa submitted false information on his health benefits
   form to obtain coverage for his new spouse and family. Our investigation
   disclosed that the employee reported a date of marriage on his health benefits
   form that was not consistent with his marriage certificate. The bogus date would
   have entitled the employee to additional health benefits for his family. The
   investigation further disclosed that the employee failed to complete a security
   questionnaire prior to his marriage. The employee received a written reprimand
   for his actions.

•	 The OIG investigated a complaint made by the Diplomatic Security Service
   concerning an overseas employee’s cohabitation with a foreign national citizen.
   Our investigation disclosed that the subject’s cohabitation had occurred over
   a five-year period and at more than one post. The employee failed to report
   the ongoing contact to proper authorities overseas and during his most recent
   security clearance update. This matter was referred to the Peace Corps Office of
   Safety and Security.

                                Pending Investigations

•	 The OIG is coordinating a worldwide investigation on Peace Corps employees’
   and Volunteers’ improper use of the agency’s computer network.

•	 The OIG received an allegation that a Peace Corps employee had a conflict of
   interest with outside employment. The employee performed contractual work
   for a company while having technical oversight and evaluation responsibilities for
   the same vendor as Peace Corps’ Contracting Officer’s Technical Representative
   (COTR). The investigation disclosed that the employee was being paid for
   contractual work by the company while rating and recommending the company
   for a Peace Corps contract. The employee failed to report the ongoing paid
   relationship with the language company while functioning as the COTR on the
   contract.



    Peace Corps Office of Inspector General                                     27
•	 The OIG opened an investigation on allegations that a Volunteer serving in a
   Middle Eastern country may have engaged in inappropriate political expression.
   A local government ministry has also initiated an investigation into the conduct
   of this Volunteer at the request of the OIG. The OIG investigation will also
   determine whether the agency took appropriate steps to address the alleged
   violation(s).

•	 The OIG is awaiting the trial of three subjects, including one former Peace
   Corps employee, who are being detained for the theft of two Peace Corps Land
   Cruisers. One of the two vehicles was later recovered in a neighboring country.

•	 The OIG and the Regional Security Officer participated in a joint investigation
   of a host country national employee in southern Africa who was implicated
   and subsequently arrested by local police authorities for the theft of more than
   $9,000. The case is in trial stage.

•	 The OIG received a complaint from a U.S. citizen who had wired funds to
   pay for shipping a dog purportedly belonging to Peace Corps Volunteers
   from overseas to the U.S. The complainant contacted the OIG when she did
   not receive the dog and was requested to send additional funds. The OIG
   investigated the allegation and discovered a widespread internet dog adoption
   scheme by local citizens originating in West Africa. The OIG solicited
   information and support from the West African country’s embassy in Washington
   D.C. The OIG also subpoenaed internet records and collaborated with
   Interpol, the RSO in country, and local police authorities to gather information
   and investigate this matter. The investigation resulted in the arrest of three
   individuals. Another suspect remains at large, and a warrant has been issued for
   his arrest. As a result of these arrests, the OIG was able to recoup a portion of the
   victims’ funds and bring attention to this scam.

•	 In a southern African country, the OIG is investigating a potential Protect
   Act violation. It was reported that a Volunteer had an inappropriate sexual
   relationship with an underage student. The Volunteer was separated from the
   agency in accordance with Peace Corps policy. The investigation has been
   referred to an Assistant U.S. Attorney in the former Volunteer’s home of record
   for possible prosecution.

•	 In a southern African country, the OIG continues to work with the regional staff,
   the embassy, and a locally retained lawyer to prosecute and receive restitution
   for the theft of internet services from the local Peace Corps office. Peace Corps
   is also seeking restitution of approximately $6,000 from the subject, who is a
   host country national and former Peace Corps employee. He is suspected of
   distributing Peace Corps’ local computer network password information and
   allowing unauthorized persons to access internet services at Peace Corps’ expense.


  28               Semiannual Report to Congress   October 1, 2006 - March 31, 2007
TABLE 1: List of Reports : Audits, Evaluations, and Inspections




Peace Corps/China                                                      Audit
Peace Corps/Kyrgyz Republic                                            Audit
Peace Corps/Uganda                                         Follow-up Audit
Peace Corps/Zambia                                          Follow-up Audit
CHP International, Inc.                                      Contract Audit
Peace Corps/Ecuador                           Audit and Program Evaluation
Peace Corps/South Africa                      Audit and Program Evaluation
Peace Corps/Cameroon                                    Program Evaluation
Blueprint for Successs                                  Best Practices Study




    Peace Corps Office of Inspector General                            29
            TABLE 2: Reports Issued with Questioned Costs or
                        Funds Put to Better Use


                                                                                        Value             Note

Audit of Peace Corps/Kyrgyz Republic                         	             	$ 	       60,000.00   	       1

Audit of Peace Corps/China                           	                     $      	    1,880.21   	       2

Audit of Peace Corps/Ecuador                             	                  $	        16,589.85   	       3

Audit of Peace Corps/South Africa                         	                $ 	 129,292.00             	   4

Follow-up Audit of Peace Corps/Uganda                            	          $ 	 3,498.11 	                5


Total of Reports Issued with Costs    	                                    $ 	 211,260.17
Questioned or Funds Put to Better Use


Note:
1.   Recording of host country contribution offset the need for additional use of appropriated funds.
2.   Outstanding travel advances.
3.   Outstanding travel advances and outstanding debt.
4.   Unsupported costs.
5.   Outstanding bills of collection, unliquidated obligations, and uncollected host country contributions.




     30                  Semiannual Report to Congress               October 1, 2006 - March 31, 2007
                     TABLE 3: Status of Reports Issued by
                        OIG with Costs Questioned




                                                       Number of    Value
                                                       Reports

A. Reports issued prior to this period
	         For which no management decision had been	      0
        	 made on any issue

    	     For which some decisions had been made
    	     on some issues                                  0

B. Reports issued during the period	                      1   $16,589.85

Total of Categories A and B	                              1   $16,589.85

C. For which final management decisions were made	        1   $16,589.85
   during this period

D. For which no management decisions were made
   during the period                                     0

E. For which management decisions were made
   on some issues during the period                       0

TOTAL OF CATEGORIES C, D, and E 	                         1   $16,589.85




    Peace Corps Office of Inspector General                        31
TABLE 4: Status of Reports Issued by OIG with Funds Put to Better Use




                                                              	
                                                                         Number of          Value
                                                                        	 Reports

      A. Reports issued prior to this period	
            For which no management decision had been
             made on any issue                                                0               0

            For which some decisions had been made
            on some issues                                                    0               0

      B. Reports issued during the period                                     4          $194,670.32

      Total of Categories A and B                                             4          $194,670.32

      C. For which final management decisions were made                       4          	$194,670.32
         during this period

      D. For which no management decisions were made
         during the period                                                     0              0

      E. For which management decisions were made
         on some issues during the period                                     0               0

      TOTAL OF CATEGORIES C, D, and E                                         4          	$194,670.32




      32              Semiannual Report to Congress   October 1, 2006 - March 31, 2007
  TABLE 5: Reports with Recommendations on which Corrective
                Action has not been completed


                      Recommendations open 60 days or more

Report                                               	      Date Issued Number of Open
                                                         									Recommendations

PC/Uganda: Follow-up Audit                                     12/14/2006      		9
PC/Ecudador: Audit and Evaluation                               1/25/2007        	27
PC/Zambia: Follow-up Audit                                      1/26/2007          		1
                       Recommendations open 120 days or more
Report                                                      	 Date Issued 	 Number of Open
                                                                            Recommendations
PC/South Africa: Audit and Evaluation                          10/23/2006             14
PC/Cameroon: Evaluation                                        10/23/2006             22

                      Recommendations open 180 days or more*
Report                             	        Date Issued 	 Number of Open
                                                      		  Recommendations
Gap Analysis 			10/15/2004                                                             6
FY 04 Agency Financial Statements                    11/15/2004                       34
PC/Samoa: Follow-up Audit                             12/9/2004                         2
Audit of the Safeguarding of Social Security Numbers   3/4/2004                        3	
PC/Kiribati: Audit and Program Evaluation              7/1/2005                         2
PC/Uganda: Audit                                      9/21/2005                         	1
FY 05 Agency Financial Statements: Audit             11/15/2005                       19
PC/Namibia: Audit                                     12/9/2005                         2
PC/Benin: Audit                                       5/18/2006                         2
FISMA                                                 5/22/2006                        8
PC/Zambia: Audit and Program Evaluation                6/5/2006                        4
Travel Policies and Procedures: Audit                 6/27/2006                       12
PC/Romania: Audit                                     7/17/2006                          2
PC/Turkmenistan: Audit                                 8/3/2006                         1
PC/Dominican Republic: Audit                          9/11/2006                         3
PC/Botswana: Program Evaluation                       9/15/2006                         4
PC/Micronessia: Audit                                 9/29/2006                        3
Mid-Atlantic Recruiting Office                        9/29/2006                         2

         * We have entered recommendations into our tracking system only since October 1, 2004.




           Peace Corps Office of Inspector General                                    33
                         TABLE 6: Summary of Investigative Activity



       Cases                                                     NUMBER
Cases opened as of 10/1/06                                          54
Cases Opened during 10/1/06 - 3/31/07                               24
Cases Closed that were previously Opened                            10
Cases Openeded and Closed during 10/1/06 - 3/31/07                   3
Total Open Cases as of 3/31/07                                      65
Referrals for Department of Justice Prosecution                      5
Referrals for Agency Administration Action                           7
Referrals to Other Agencies                                          1

       Domestic Court Actions                                    NUMBER
Prosecutions                                                        0
Convictions                                                         0
Suits                                                               0
Judgments                                                           0
Fines/Restitutions                                                  0


       Overseas Court Actions                                    NUMBER                       VALUE
Prosecutions                                                         1
Convictions                                                          1
Suits                                                                0
Judgments                                                            0
Fines/Restitutions                                                   1                             $500

       Monetary Results                                          NUMBER                       VALUE
Annual Savings                                                       3                           $58,538
Recoveries/Restitution                                               4                           $14,026
Cost Avoidance                                                       3                        $2,067,711

       ADMINIstrative Actions                                    NUMBER
Employees                                                            6
Other Persons/Businesses                                             1




         34                Semiannual Report to Congress   October 1, 2006 - March 31, 2007
       TABLE 7: Summary of Hotline and Other Complaints




Complaints Received                                           42
Complaints Closed                                              4
Awaiting OIG Action                                            1
Resulted in Investigations                                    18
Resulted in Audits                                             0
Resulted in Evaluations                                        1
Referred to Agency Management                                  6
Referred to Other Agency                                       0
No Action Needed*                                             12

*
    Nine of these complaints were regarding one issue.




     Peace Corps Office of Inspector General             35
    TABLE 8: References to Reporting Requirements of
               the Inspector General Act



The Inspector General Act of 1978, as amended, specifies reporting requirements for
Semiannual Reports to Congress. The requirements are listed below and indexed to the
applicable page.

Act Reference Reporting Requirements                                                   Page

Section 4(a)(2)    Review of legislation and regulations                               None
Section 5(a)(1)    Significant problems, abuses, and deficiencies                      5 - 15
Section 5(a)(2)    Significant recommendations for corrective actions                  5 - 15
Section 5(a)(3)    Prior significant recommendations on which corrective action
                   has not been completed                                                33
Section 5(a)(4)    Matters referred to prosecuting authorities                         25 - 28
Section 5(a)(5)    Summary of instances where information was refused                   None
Section 5(a)(6)    List of audit reports, including evaluations, inspections, and
                   reviews                                                               29
Section 5(a)(7)    Summary of significant reports                                      8 - 15
Section 5(a)(8)    Statistical table - questioned costs                                  31
Section 5(a)(9)    Statistical table - funds put to better use                           32
Section 5(a)(10)   Summary of previous audit reports without management
                   decisions                                                           None
Section 5(a)(11)   Significant revised management decisions                            None
Section 5(a)(12)   Significant management decisions with which the Inspector
                   General disagrees                                                   None
Section 5(a)(13)   Information under Federal Financial Management
                   Improvement Act of 1996                                             None




  36                Semiannual Report to Congress   October 1, 2006 - March 31, 2007
Help promote the integrity, efficiency, and effectiveness of the Peace Corps.
Anyone knowing of wasteful practices, abuse, mismanagement, fraud, or
unlawful activity involving Peace Corps program or personnel should call or
write the Office of Inspector General.

Call:
Main Office                       (202) 692-2900
Hotline                           (800) 233-5874
Violent Crime Notifications       (202) 692-2911

Write:
Peace Corps
Attn: Inspector General
1111 - 20th St., N.W.
Washington, DC 20526

Or

Peace Corps
Attn: Inspector General
P.O. Box 57129
Washington, DC 20037-7129

Email:
Hotline:                               OIG@peacecorps.gov
Violent Crime Notifications:           violentcrimehotline@peacecorps.gov




     Information received is held in confidence to the maximum feasible extent.
Peace Corps
Office of Inspector General
Paul D. Coverdell Peace Corps Headquarters
1111 - 20th St., NW
Washington, DC 20526
